IN THE SUPREME COURT OF THE UNITED STATES
No. 19-1284
MaIwanpBYTES, INC.,
Petition er,

v

ENTCUA SOT.TWARP GROUP

USA, LLC,
Respondent

CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief in Opposition for Respondent, which was prepared using

Century Schoolbook l2-point typeface, contains 8,236 words, excluding the parts
of the document that are exempted by Rule 33.1(d). This certificate was prepared

in reliance on the word-count function of the word-processing system (Microsoft
Office Word 2013) used to prepare the document.

I declare under penalty

of perjury

that the foregoing is true and correct.

Executed on July 27,2020.

Bu
Counsel

Record for Respondent

